No. 19-648

IN THE

~upreme (!Court of tbe Wniteb ~tates
CACI PREMIER TECHNOLOGY, INC.,
Petitioner,
V.

SUHAIL NAJIM ABDULLAH AL SHIMARI; SALAH HASAN
NUSAIF JASIM AL-EJAILI; AsA'AD HAMZA HANFOOSH
AL-ZUBA'E ,

Respondents.

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Reply Brief for Petitioner contains 2,999 words and complies with the word
limitation established by Rule 33.l(g)(iii) of the Rules of this Court.
Dated: January 7, 2020

